<html>
<title> - INTERNATIONAL HIGH-SPEED RAIL SYSTEMS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                 INTERNATIONAL HIGH-SPEED RAIL SYSTEMS 
=======================================================================
                                (110-28)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

             RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 19, 2007

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                     U.S. GOVERNMENT PRINTING OFFICE

34-799 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001














             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
JUANITA MILLENDER-McDONALD,          JERRY MORAN, Kansas
California                           GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
JULIA CARSON, Indiana                JOHN BOOZMAN, Arkansas
TIMOTHY H. BISHOP, New York          SHELLEY MOORE CAPITO, West 
MICHAEL H. MICHAUD, Maine            Virginia
BRIAN HIGGINS, New York              JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
JOHN T. SALAZAR, Colorado            CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      TED POE, Texas
DANIEL LIPINSKI, Illinois            DAVID G. REICHERT, Washington
DORIS O. MATSUI, California          CONNIE MACK, Florida
NICK LAMPSON, Texas                  JOHN R. `RANDY' KUHL, Jr., New 
ZACHARY T. SPACE, Ohio               York
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                CHARLES W. BOUSTANY, Jr., 
JASON ALTMIRE, Pennsylvania          Louisiana
TIMOTHY J. WALZ, Minnesota           JEAN SCHMIDT, Ohio
HEATH SHULER, North Carolina         CANDICE S. MILLER, Michigan
MICHAEL A. ACURI, New York           THELMA D. DRAKE, Virginia
HARRY E. MITCHELL, Arizona           MARY FALLIN, Oklahoma
CHRISTOPHER P. CARNEY, Pennsylvania  VERN BUCHANAN, Florida
JOHN J. HALL, New York
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California

                                  (ii)



     SUBCOMMITTEE ON RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                   CORRINE BROWN, Florida Chairwoman

JERROLD NADLER, New York             BILL SHUSTER, Pennylvania
LEONARD L. BOSWELL, Iowa             THOMAS E. PETRI, Wisconsin
JULIA CARSON, Indiana                WAYNE T. GILCHREST, Maryland
GRACE F. NAPOLITANO, California      STEVEN C. LaTOURETTE, Ohio
NICK LAMPSON, Texas                  JERRY MORAN, Kansas
ZACHARY T. SPACE, Ohio               GARY G. MILLER, California
BRUCE L. BRALEY, Iowa                HENRY E. BROWN, Jr., South 
TIMOTHY J. WALZ, Minnesota           Carolina
NICK J. RAHALL II, West Virginia     TIMOTHY V. JOHNSON, Illinois
PETER A. DeFAZIO, Oregon             TODD RUSSELL PLATTS, Pennsylvania
JERRY F. COSTELLO, Illinois          SAM GRAVES, Missouri
EDDIE BERNICE JOHNSON, Texas         JIM GERLACH, Pennsylvania
ELIJAH E. CUMMINGS, Maryland         MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            LYNN A. WESTMORELND, Georgia
DANIEL LIPINSKI, Illinois            JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (ex officio)
  (ex officio)

                                 (iii)













                                CONTENTS

                                                                   Page
Summary of Subject Matter........................................    vi

                               TESTIMONY

Barron de Angoiti, Ignacio, Director of High-Speed Rail, 
  International Railway Association..............................     5
Diaz, Apolinar Rodriguez, International Director, Renfe Operadora 
  (Spain)........................................................     5
Matsumoto, Hiroki, Transportation Counselor, Embassy Of Japan....     5
Metzler, Jean-Marie, Consulting Director, Tgv Development, French 
  National Railways (SNCF).......................................     5
Zhao, Dr. Quansheng (China), Professor and Director, Division of 
  Comparative & Regional Studies, School of International 
  Service, American University...................................     5

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Costello, Hon. Jerry F., of Illinois.............................    30

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Barron de Angoiti, Ignacio.......................................    32
Matsumoto, Hiroki................................................    62
Metzler, Jean-Marie..............................................    85
Diaz, Apolinar Rodriguez.........................................   111
Zhao, Dr. Quansheng..............................................   190

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

            HEARING ON INTERNATIONAL HIGH-SPEED RAIL SYSTEMS

                              ----------                              


                        Thursday, April 19, 2007

                   House of Representatives
    Committee on Transportation and Infrastructure,
       Subcommittee on Railroads, Pipelines, and Hazardous 
                                                 Materials,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Corrine 
Brown [chairwoman of the subcommittee] presiding.
    Ms. Brown of Florida. Good morning. The Subcommittee will 
come to order.
    The Subcommittee is meeting today to hear testimony on 
international high-speed rail systems.
    Over the recess, I had the pleasure of joining Chairman 
Oberstar and several other members of the Committee on a trip 
to Europe, where we rode a high-speed train from Brussels to 
Paris and met with transportation officials from both Belgium 
and France. In fact, one of the greatest honors I ever had was 
driving the TGV during one of my visits to France.
    This summer I plan to lead a delegation of members to 
several Asian countries, including Japan, to learn about the 
development of passenger rail and high-speed rail in those 
countries. Japan is particularly important since it created the 
world's first high-speed train in 1964. At the time, the 
``bullet train'' was operating at speeds of 130 miles per hour. 
Today, Japan's high-speed trains travel at about 186 miles per 
hour. In fact, Japan holds the world's record for the fastest 
magnetic train in the world. When tested, it reached 361 miles 
per hour.
    Japan is not the only country represented here today that 
has broken a world record when it comes to trains. A few weeks 
ago, in fact, we were in Europe during that time, France broke 
the world speed record for steel-on-steel rail when the TGV 
achieved a speed of 357 miles per hour. According to an article 
I read, people watching the side of the tracks barely saw the 
train go by. This is very impressive.
    Other countries have since followed Japan and France's 
lead, including Spain and China, both of which are represented 
here today. I am looking forward to hearing about their high-
speed rail systems.
    Several months ago I joined Chairman Oberstar in asking the 
Congressional Research Service to look into the development of 
passenger rail in other countries and, in particular, public 
financing of passenger rail. CRS is still completing its work 
but, in the interim, has provided me with a number of studies 
to review, all of which show that these countries did two 
things the United States has not: they made passenger and high-
speed rail development a top priority and they have dedicated 
billions of public dollars to finance it. We have not done 
that, and that is the reason the United States is lagging 
behind the rest of the world when it comes to passenger rail.
    Several States in the United States are looking into high-
speed rail. On the Northeast Corridor, Amtrak's Acela Express 
is capable of reaching speeds up to 135 miles per hour between 
Washington and New York and 150 between New York and Boston, 
but because of congestion, track conditions, and backlogging of 
maintenance, trains average about 82 miles per hour below New 
York and 66 miles per hour above New York. If we want a 
national passenger rail system that is more efficient and 
reaches higher speeds, then we are going to have to step up to 
the plate, stop nickel-and-diming Amtrak to death, and dedicate 
the resources necessary to improve the current system.
    With that, I want to welcome all of our panelists and thank 
them for joining us today. I am honored that you all have 
traveled so far to meet with the Subcommittee. I am looking 
forward to hearing about your experiences with high-speed rail.
    Before I recognize Mr. Shuster for his opening statement, I 
ask unanimous consent to allow 30 days for all members to 
revise and extend their remarks and to permit the submission of 
additional statements and materials by members and witnesses.
    Without objection, so ordered.
    Mr. Shuster?
    Mr. Shuster. Thank you, Madam Chairman. Thank you for 
holding today's hearing on international high-speed rail.
    The United States currently has the world's best freight 
railway system, and this has been a major driver in our 
Nation's economic success. But as we heard a couple weeks ago 
Mr. Mica's Forum on High Speed Rail, the United States is 
lagging badly in the area of high-speed ground transportation.
    Our airports and highways are becoming increasingly 
congested and, if we don't do something soon, this congestion 
is going to strangle our Country's economic growth.
    I believe that high-speed rail, ground transportation, 
including both steel wheel trains and Maglev, can be a major 
part of that solution.
    We need to move beyond our antiquated Amtrak system, which 
is really just a relic left over from the 1930s. Amtrak's 
intercity trains average less than 60 miles per hour and their 
fastest, the Acela, manages only 82 miles per hour, as the 
Chairwoman pointed out.
    But there is hope. Speeds in the Northeast Corridor could 
and can be increased substantially by relatively modest 
investments.
    In my own State of Pennsylvania, the Keystone Corridor, 
from Harrisburg to Philadelphia, is now averaging speeds of up 
to 110 miles an hour. The higher speeds have already led to 
significantly higher ridership and I believe that higher speeds 
would make the service even more attractive.
    One way to jump to a higher level of speed would be a 
Maglev. A German firm called Transrapid just completed its 
Environmental Impact Statement for the first segment of a 
futuristic Maglev system capable of operating at speeds up to 
350 miles per hour. The first piece of that line we hope would 
be in Pittsburgh, Pennsylvania, or outside of Pittsburgh, from 
the airport to downtown. I guess it was in T21 that there were 
three sites. Baltimore-Washington, Pittsburgh, and, I believe, 
out in Las Vegas, were the three sites that were considered. 
The folks in Pittsburgh have put together a plan. Actually, 
they are ready to move forward if we could get the funding for 
it.
    Of course, some people say why Pittsburgh, what makes sense 
in Pittsburgh? Well, Pittsburgh offers the varying different 
terrains, the different seasons of the year to really test a 
train significantly, and, as I said, they are ready to go if we 
have the funding in place.
    So in closing, Madam Chairwoman, I would like to again 
thank you for holding this hearing and welcome all of our 
distinguished witnesses today.
    Thank you for traveling, I know, great distances to be here 
today and help to inform us.
    Thank you. I yield back.
    Ms. Brown of Florida. Mr. Mica?
    Mr. Mica. Thank you, and good morning. I am pleased that 
the Chairwoman and the Ranking Member have chosen to conduct 
this rather somewhat historic hearing on international high-
speed rail systems and bringing together some of the expert 
operators and developers of systems from across the world.
    I first want to take this opportunity to again extend a 
formal welcome. I know Ms. Brown has done that. We appreciate 
your participation today. As I said earlier to you, I think we 
have a lot to learn from your experiences, both your successes 
and sometimes the problems you have incurred in developing 
these high-speed rail systems.
    We do not have a single high-speed rail system in the 
United States. Some years ago the Congress authorized about a 
dozen corridors and there have been various efforts to develop 
those corridors. Probably the biggest impediment to development 
of a high-speed rail corridor in the United States is our own 
Amtrak system, which actually is charged by law with operation 
of all passenger long-distance service and, right now, high-
speed service in the United States.
    Unfortunately, their attempts in the Northeast Corridor to 
develop high-speed service have been a disaster after billions 
of dollars have been expended. They purchased equipment with 
dissimilar designs and technical requirements; they took a 
European design and made it too wide. It is supposed to be a 
tilt train and now, with the wider widths, if it tilts, it hits 
freight or other vehicles on the track; the catenary does not 
match. And we ended up with Acela operation that operates on 
average speed of 82 to 83 miles per hour. We closed down the 
system for nearly half a year because we bought equipment that 
did not have parts for it, in this case brakes, which are 
basically essential to operate.
    So our history of operating from a Soviet style rail system 
has not been that good.
    I am pleased to see all of those who are with us today. I 
have personally ridden the Shinkansen; I have visited the 
Maglev test track in Japan and Germany; ridden last fall the 
Maglev in Shanghai with German technology; Telgo; I think the 
ICE train in Germany; the TGV; I think just about every system 
that operates.
    Unfortunately, most of those systems are highly subsidized 
by government, and I do hope that we get to find out some of 
the financial arrangements.
    I will mention in closing that I conducted a small informal 
forum a few weeks ago--Ms. Brown was kind to participate--and 
we did have an exciting approach which is offered in the 
privatization of the British rail system in selling off the two 
north-south high-speed lines to Virgin Rail which, in 1998, 
acquired the two major north-south corridors. Those were 
acquired by Mr. Branson. The information that was provided to 
us, when I visited there three years ago, they had 34 million 
passengers a year. They now have 44 million. They have paid a 
dividend the last three years--we do have that information 
confirmed--and they have contributed, I think, some 5 billion 
pounds, equivalent to $10 billion, towards development of the 
infrastructure and totally acquired the responsibility for the 
cost of the rolling stock. I think that is a model that we 
should compare against your operations as we consider getting 
into that business.
    So I look forward to hearing of your experiences and, 
again, we extend our deep appreciation on behalf of the 
Committee for your participation today. Hopefully, we can bring 
the United States kicking and screaming into the world of high-
speed rail systems and operations, and do it in a cost-
effective manner that benefits not only the traveler, but the 
taxpayer.
    With those comments running only 30 seconds over, I yield 
back the balance of my time.
    Ms. Brown of Florida. Thank you.
    Once again, we are very pleased to have such a 
distinguished panel of witnesses this morning. I want to 
welcome Mr. Metzler, who is the Consulting Director for TGV 
Development for the French National Railways. He is joined 
today by Mr. Morrell, the President of Rail Europe, who has 
volunteered to help us with some translations if needed. 
Welcome.
    Next, we have Mr. Barron, who is the Director of High-Speed 
Rail for the International Railway Association.
    We have Mr. Rodriguez, who is the International Director 
for Spain.
    We have Mr. Matsumoto, who is the Transportation Counselor 
from the Embassy of Japan. He has come to the Embassy from the 
Ministry of Land Infrastructure and Transport in Japan, and I 
understand that this is the first time that the minister will 
testify before Congress. I hope it is not the last. I am 
pleased that you are here today. Welcome.
    Finally, we have Dr. Zhao, who is Professor at American 
University and Director of the University Division of 
Comparative & Regional Studies, School of International 
Service. He is here to discuss the high-speed rail system in 
China. I understand he just left Tampa, Florida, so welcome to 
Washington.
    With that, we will start.

   TESTIMONY OF JEAN-MARIE METZLER, CONSULTING DIRECTOR, TGV 
DEVELOPMENT, FRENCH NATIONAL RAILWAYS (SNCF); IGNACIO BARRON DE 
  ANGOITI, DIRECTOR OF HIGH-SPEED RAIL, INTERNATIONAL RAILWAY 
 ASSOCIATION; APOLINAR RODRIGUEZ DIAZ, INTERNATIONAL DIRECTOR, 
   RENFE OPERADORA (SPAIN); HIROKI MATSUMOTO, TRANSPORTATION 
 COUNSELOR, EMBASSY OF JAPAN; AND DR. QUANSHENG ZHAO (CHINA), 
  PROFESSOR AND DIRECTOR, DIVISION OF COMPARATIVE & REGIONAL 
 STUDIES, SCHOOL OF INTERNATIONAL SERVICE, AMERICAN UNIVERSITY

    Mr. Metzler. Chairwoman, distinguished Congress members, I 
would like to warmly thank the Subcommittee for giving me the 
immense honor of presenting the French high-speed system.
    TGV is not only a legal trademark, but one of the 10 most 
highly valued brands in the mind of my compatriots.
    Let me briefly introduce myself. As a young engineer, I was 
a project leader for the first TGV (Paris-Lyon) which went into 
service in 1981. Then I worked on the rolling stock industry 
side for four years. Returning to SNCF, as Senior Executive VP 
for Passenger Services, we adapted Sabre software under license 
from American Airlines to the passenger rail industry. It was 
the first successful example of yield management set up to 
optimize train capacity versus revenues.
    The TGV network includes a little bit more than 900 miles 
of high speed lines operated by more than 500 train sets in 
France alone. The TGV network also connects France to other 
countries, with a total of 2,500 miles of track now, and this 
should double up to 2020.
    Key facts now: 1.4 billion passengers since 1981, without a 
single casualty; continuous growth in passengers reaching 
currently 100 million a year.
    The reasons for this success. First, a cut by half of 
journey time between Paris and Lyon, 2 hours instead of 4, 
opening new marks to rail, as with the Paris-London route; 
making rail a fierce competitor to other modes; enabling, in 
particular, rail to win significant market share over air on 
routes with journey time around 3 hours.
    Key success factors. First, a consumer-oriented product: 
safe, no casualty since 1981 as mentioned, even in case of 
derailments--thanks in particular to the TGV's articulated 
design; providing the same riding comfort at 100 or 200 miles 
an hour; a consumer-oriented approach to suit the changing 
demographics and lifestyles of our clients, it concerns, for 
instance, seats, accessibility to the train and to the 
stations; a large range of fares, which increasingly attracts 
customers. Average load factor is now 71 percent.
    An environmentally responsible product: route alignment 
design avoids huge earthworks and saves on land acquisition 
costs; high-speed lines can in fact be coupled with highway 
rights-of-way, as sone for Paris-Lille; TGV lines slopes and 
ramps are close to road standards, 3.5 to 4 percent; TGV 
platform is only half of that required by a 2 x 3 lanes 
highway.
    TGV delivers higher efficiency in energy, lower energy 
consumption, and greatly reduced greenhouse gases emissions. We 
will come certainly to this point later on during the Q&A 
session.
    Proven or carefully tested solutions is also a key of 
success. Conventional design for both track and rolling stock. 
The sentence is: ``You will have a disaster if any new project 
contains more than 20 percent of innovation.'' That is a 
statement from Rand Corporation in the 1980s.
    However, the improvements over time are dramatic: the train 
that beat the world rail speed record on April 3rd certainly 
incorporates much more than 20 percent of new technologies 
compared to the first sets of 1981.
    I come to the key financial figures. The cost of a TGV line 
today is about $32 million per mile, about 70 percent higher 
than the first Paris-Lyon line, which was easier to build on, 
without densely populated areas to pass through. Most of the 
recent cost increases are also due to environmental protection 
regulations: noise, access, hydrologic precautions.
    About funding. In every case, rolling stock is financed by 
SNCF itself. Paris-Lyon infrastructure was entirely financed by 
SNCF alone, as TGV North. TGV East line, Paris-Strasbourg, is 
the only one largely paid for with public funds, up to 76 
percent: national government, European Union, states and cities 
served
    You see here a slide of operation cost breakdown. You can 
remark a very low cost of energy, around 4 percent.
    Concluding remarks on marketing and sales. To maximize the 
return of these large kind of investments, railway companies 
must master not only the key factors of success described 
above, but also forecasting methods; market knowledge, tariffs 
policy; and, as mentioned earlier on, sales and reservation 
system. So far the success lies in volume and revenue.
    I will use the rest of my time to show you a two and a half 
minute video of the last record of the 3rd of April. You were 
there.
    [Video played.]
    Mr. Metzler. Thank you for your attention. I remain at your 
disposal for Q&A session afterwards.
    Ms. Brown of Florida. Impressive.
    Next----
    Mr. Oberstar. Madam Chair.
    Ms. Brown of Florida. Yes, Mr. Oberstar.
    Mr. Oberstar. [Statement in French.]
    I'll translate that later. I was just saying I want to 
thank Mr. Metzler, whom we saw in Paris during the Committee 
trip, along with Chairwoman Brown, and was just saying that we 
took the TGV from Brussels to Paris. When I was on my way to a 
graduate studies program at the College of Europe in Rouge in 
1956, I made the trip by train from Paris to Brussels. It was 
six hours.
    Two weeks ago, that same trip was an hour and 20 minutes. 
And I had the privilege of at least sitting at the controls, 
not truly running the train, but sitting at the controls, and 
for me it was a very nostalgic moment because it was also 50 
years ago that the Common Market Treaty was signed during the 
year that we completed our graduate program, and now the Common 
Market has achieved its 50 years of operation, with great 
success.
    We thank you very much, Monseigneur Metzler, for making the 
trip here to be with us and for the opportunity we had for in-
depth review.
    By the way, that train that took us from Brussels to Paris 
had 1100 passengers, a 94 percent load factor, and today and 
for the last seven or eight years there has been no air service 
between Brussels and Paris because the train is so far more 
competitive and so far more convenient. Once you get into Gare 
du Nord, Paris, it is just a few steps to the Metro and you can 
be anywhere in downtown Paris. Magnifique.
    Thank you.
    Ms. Brown of Florida. Mr. Barron?
    Mr. Barron. Thank you, Mrs. Chairwoman, ladies and 
gentlemen. It is a very big honor to be here to speak about 
high-speed rail in this important forum. I represent the 
International Railway Association. I am Spanish, but I 
represent the International Railway Association, which is a 
venerable association founded in 1922 in order to promote 
cooperation among railways first in Europe and then all around 
the world.
    At the present moment, we are 170 members, but soon we will 
be almost 200, with the incorporation of some countries in 
Latin America. This is a club in which members are railway 
companies of any kind of railway company. The mission is to 
promote rail transport; to spread and develop the advantages of 
this important transport mode; and, of course, to change best 
practices to solve common problems.
    In the UIC, my responsibility is high-speed trains and we 
develop certain activities in order to solve common problems, 
but especially to spread and to diffuse the philosophy of high-
speed.
    What is high speed? High speed signifies at least 150 miles 
per hour, 200 kilometers per hour. Why this speed? Because 
there is a technical threshold, about 125 miles per hour, 200 
kilometers per hour. This speed is possible to operate with 
classic trains and classic lines, but more than this speed is 
absolutely necessary to have new lines especially built for 
this kind of operation, special trains, and so on.
    So high speed is a rail system with speeds of more than 150 
miles per hour. This is the evolution of maximum speed along 
the last 50 years, and we can say that today the speed record 
is 574.8, as you have seen, and the maximum speed is operation 
is 200 miles per hour will be from the month of June.
    This gap, this difference between maximum speed with 
passengers and maximum speed in experimentation is very 
important because it is a result of the capacity of the system 
in order to first give comfort and give confidence to 
customers, and then to have possibilities for the future.
    High speed was born in 1964 in Japan, and it was created in 
Europe from 1981. The first line was from Paris to Lyon. Today 
there are, all around Europe, 3,034 miles in operation of these 
kind of lines. But the success of this transport mode has 
pushed the explosion of these kinds of lines all around Europe, 
and in 2010 it is forecasted 1,711 more miles, which are, at 
present day, under construction; and in 2020 a very important 
European network will be in operation. This is our present 
situation. You can appreciate lines are like motor ways in 
which speeds are able to operate at the speed of 250 kilometers 
per hour or more and this is the forecasting for 2020. So you 
can appreciate this is a very important and very complete 
network in which one of the more important items is the 
interoperability and the possibility to operate trains from one 
point to another point of the network.
    This is the evolution of the network. This is kilometers of 
new high-speed lines. Today, the evolution is another range of 
117 miles per year, but due to this success, the construction 
and the plan will push this three times more. So that is what 
is expecting to inaugurate from here to 2020, 2025, is more or 
less 246 miles per year. The impact to traffic is very 
dramatic, always rising. You can appreciate in this graphic it 
is more or less 10 percent on the average in the last 10 years, 
10 percent increase per year. The effect also to motorless 
fleet is very spectacular because before and after the 
regulation of one of these transport modes or this line, the 
evolution is very important. This is the example from Paris-
Brussels and this is the example taken into account only train 
and planes, between Madrid and Seville, and you can appreciate 
the evolution to the railway is very, very dramatic.
    In a certain way, we can say that this is comparing rail 
travel and market share train and plane. Up to one hour and a 
half, two hours and a half of time travel for train, the 
traffic is almost 90, 95 percent for train, almost disappear. 
For example, between Paris and Brussels, you can appreciate 
almost no transport. But increasing time travel for train 
logically decreases the participation, but the market share 
remains 50 percent even up to three or more hours.
    This is from the view of customers, but from the society, 
speed is very important and has very important advantages. 
First is capacity. Railways in general high speed gives very 
important capacity possibilities. For example, in high speed, 
in Japan they arrive even up to 360,000 passengers per day, 
which reduces traffic congestion and to boost economy 
development in the areas served.
    Second advantage for high speed is minimal environment 
impact compared with air and road transport. For example, high 
speed uses one-third of the land area than motorways, a ninth 
of energy of planes, and a quarter of cars. Also helps to 
contain urban sprawl.
    This is just a very quick overview on energy efficiency 
comparison with trains, and high-speed trains in particular 
with other transport modes. You can appreciate for one unit of 
energy in certain fixed distance, you can transport even nine 
times more passengers with high-speed trains than with planes.
    Concerning primary energy and CO2 emissions, this is very 
valuable depending on the conditions of generating electricity, 
but in general we can say that it is more or less a quarter of 
planes and a third from private cars.
    Very important, the concept of external costs, because this 
is the cost that you don't pay when you purchase a liter or a 
gallon of petrol or when you purchase a train ticket or a plane 
ticket. Comparing the different effects that you don't take 
into account, rail is still more beneficial than other 
transport modes.
    Of course, safety is absolutely. No casualties per billion, 
no billion passengers from the history of high-speed. It has 
never occurred casualties at more than 125 miles per hour.
    I am not superstitious, but I always cross my fingers when 
I say this.
    And what about costs? It is very useful to say high-speed 
is a very expensive transport mode. I will say not necessarily. 
But it requires a very important economic resource. This is 
more or less the average cost of infrastructure and trains. 
Infrastructure requires important investments, but then 
maintenance is more or less cheap; not cheap, but not very 
expensive. Train, the cost is more or less expensive, and then 
the maintenance is very important.
    And how is it possible to fund this system? In general, 
public participation is always required, but more and more, in 
different parts of the world, the private funds are mobilized 
and joined with public funds can succeed in this investment. 
Here are two quick examples. Between Spain and France, the PPP, 
public-private partnership, and BOT in Taiwan is very 
successful in order to build this kind of system.
    In conclusion very quickly, high-speed rail is a very good 
transport system in order to give capacity, environment, and 
safety for customers and society. It is a complex system which 
requires important and detailed studies. It is different in 
each country, so it is not possible to apply exactly the same 
model from France to the States or to Germany or to other 
countries, and always requires public funds for support.
    Thank you very much for your attention.
    Ms. Brown of Florida. Thank you. We will have some 
questions for the panelists when we finish.
    Mr. Rodriguez?
    Mr. Rodriguez. Chairwoman and members of the Committee, 
ladies and gentlemen, first of all, it is a great honor for me 
to be invited here and have the opportunity to address this 
Subcommittee by presenting the guidelines of the Spanish 
Railway System and the state operator, Renfe.
    Spanish Railways has been an integrated system for more 
than 150 years, until 2004. Within this long period, Renfe was 
born, as national railways, in 1941, unifying several private 
companies that had gone bankrupt.
    By law, and according to the European Directives in 2005, 
Renfe was divided in two entities: Infrastructure Manager, 
called ADIF; and Railway Undertaking, named Renfe-Operator or 
just Renfe.
    The European rules urge national railway companies to 
separate their activities. The Directives require a minimal 
level of separation between infrastructure and operation.
    What is the present Spanish model? Our model is the one of 
the total separation between infrastructure and operation based 
on the idea which allows a better functioning of the railway 
market.
    The Spanish model keeps only one infrastructure manager and 
fosters the existence of many operators. The process shall have 
two states. The first stage began in 2005 with new freight 
operators. The second stage, after 2010, with new passenger 
operators.
    Currently, in the Spanish System there are Renfe and six 
small operators in freight.
    The Strategic Plan of Government. The Spanish government 
deploys the Spanish infrastructure and Transport Programme for 
2005-2020. This Programme, among other things, contains the 
most ambitious high-speed railway plan in the world, which 
provides for: 120 billion Euros of investment in railway 
system; in the year 2010, we will have more than 2,200 
kilometers in high-speed tracks, a network superior to any 
other in the world; in 2020, there will be 10,000 kilometers of 
high speed or high performance tracks; thanks to this plan, 90 
percent of the population will have access to a high-speed 
railway station within 50 kilometers reach.
    Renfe, Railway Operator in Spain. Renfe is a state company 
operating in four distinct areas of activity: high speed and 
long distance, local and regional trains, freight, and rolling 
stock maintenance. Our staff is comprised of 15,000 
professionals. The level of activity reaches more than 500 
million passengers; 25 million tons in freight traffic. The 
overall expenses of Renfe are about 2,300 million Euros, 25 
percent of which is spent on infrastructure.
    The Contract-Programme Renfe-Government. Renfe has a 
Contract Programme with the government for the period 2006-
2010. The Contract Programme stipulates the mutual commitments 
between Renfe and the government. According to the terms of the 
contract, Renfe commits itself to manage the commercial 
development and the quality of the services and, very 
important, to operate public services, such as local and 
regional trains.
    The government makes financial contributions to public 
service and other transitory compensations.
    The Contract Programme is the pivot of the strategic plan 
of Renfe and ensures the accomplishment of the growth targets 
set out in the plan.
    The State contribution to Renfe will be 2.6 billion Euros 
in the current transfer during these five years, 65 percent of 
them for compensating public services in order to balance the 
stipulated activity.
    Also, I would like to point out that Renfe does not receive 
any money for operating its high-speed long-distance services 
because these are considered commercial services.
    Besides that, the state capitalizes on Renfe by capital 
contributions because the state is the owner of the company.
    High Speed Services in Renfe. Renfe started its commercial 
operation in 1992, on the line Madrid-Seville. The service, 
called AVE, started with a new approach, previously unknown, I 
think, in Europe, in railway market, of course, clearly 
oriented for the customer.
    AVE was awarded with the European Quality Prize.
    In 1997, AVE obtained profits for the first time.
    At present, we have three kinds of high-speed services: 
long distance, named AVE; medium distance; and double gauge 
services.
    AVE, apart from being an acronym of high speed, also means 
``bird'' in Spanish because the AVE trains seem to fly like 
birds.
    This service is known for its quality. As regards this, I 
would like to highlight one point. In 1994, we set up in AVE 
services, our punctuality commitment. According to this 
commitment, the total ticket price is refunded immediately to 
the passenger in cash if the train arrives at its destination m 
ore than five minutes late.
    This commitment produced a complete change of customer's 
perception. Of course, this commitment increased our market 
share. This commitment is unique in the world. At present, we 
work upon: the gradual implementation of punctuality commitment 
in other services; new quality commitments, including 
compensations in cash for lack or deficiency of board service. 
We refund from 25 percent to 100 percent of the ticket price 
for deficiencies in toilets, air conditioner, head phones, etc.
    In general, these kind of commitments have positive effects 
of internal functioning, involving employees and suppliers in 
achieving the standard of quality.
    Finally, may I invite you to visit and use our services. 
Sincerely, it would be a great honor for Renfe and for me to 
welcome you to Spain.
    This will be all. Ladies and gentlemen, thank you for your 
attention.
    Ms. Brown of Florida. Thank you very much.
    We had some discussion back here about the amount. Can you 
tell us how much you all spend on the system yearly?
    Mr. Rodriguez. Sorry? Yes, just in operator system, we 
invest more or less 1,200 Euros every year, but in 
infrastructure we invest more or less 4,000 million Euros or 4 
billion Euros every year. But this is a period of 15 years. It 
means, in general, almost 1 point of the GDP in investment in 
infrastructure, but it is an investment to change completely 
the railway system in Spain.
    Ms. Brown of Florida. Mr. Oberstar?
    Mr. Oberstar. One percent of GDP?
    Mr. Rodriguez. Yes. The total----
    Mr. Oberstar. Fantastic.
    Mr. Rodriguez. Yes, in Europe, the average of the 
investment in infrastructure--in infrastructure in general, not 
in railway--is about less than 1 point of the GDP every year. 
In Spain now it is almost 2 percent every year, and half of 
that, a little less than 1 point of the GDP, is in railway 
system because we try to change the share between railway and 
road in Spain.
    Mr. Oberstar. Good.
    Ms. Brown of Florida. Thank you.
    Mr. Matsumoto.
    Mr. Matsumoto. Yes. Thank you, Madam Chairwoman and members 
of the Committee. It is an honor for me to be here to discuss 
the Japanese high-speed rail system, or ``Shinkansen.''
    [Laughter.]
    Mr. Oberstar. Bravo.
    Mr. Matsumoto. Thank you.
    The Japanese people are very proud of this system and we 
are happy to share our experiences with you. In my testimony, I 
will test on the history of the Shinkansen, its development and 
financing, and, finally, the features and benefits of this 
system.
    On behalf of the government of Japan, I would like to 
welcome the distinguished Committee members coming to Japan, 
and I am more than happy to assist you in organizing your tour 
to see the Japanese high-speed railway system, as well as our 
transit system.
    Today I have a lot of information that I believe is useful 
for the discussion about high-speed rail in the United States. 
However, due to the limited time for my presentation, I would 
like to particularly focus on the development of Shinkansen 
network and the benefits from Shinkansen. I ask that my full 
testimony be submitted for the record.
    Ms. Oberstar. Without objection.
    Mr. Matsumoto. Thank you.
    Also, I will use a few slides to help me explain the 
history and benefits of Shinkansen.
    The high-speed railway system in Japan, the so-called 
Shinkansen, started its operation in 1964 between Tokyo and 
Osaka, Tokaido Shinkansen, which you can see as the orange 
lines on the map in the slide.
    Before it was privatized in 1987, Japanese National 
Railways, or JNR, constructed Sanyo, Tohoku, and Joetsu 
Shinkansen lines.
    After the privatization, Tohoku and Joetsu, the green lines 
on the slide, were transferred to the JR East. The orange line, 
Tokaido, is operated by JR Central. And JR West received Sanyo 
Shinkansen, shown in blue. Kyoshu Shinkansen, the newest 
Shinkansen that opened in 2004, is the red line in the southern 
part of Japan and operated by JR Kyushu. Shinkansen railways 
currently under operation in total are 1,352 miles.
    It should be noted most of existing Shinkansen lines run 
through densely populated areas in Japan, connecting most of 
the major cities, such as Tokyo, Nagoya, Osaka, Fukuoka, and 
Sendai. The dense population along the lines is the geographic 
background of the popularity of the Shinkansen.
    Compared with other modes of transportation, Shinkansen is 
most competitive when traveling distances between 200 and 500 
miles. More passengers choose automobiles if the trip distance 
is less than 200 miles because of relatively cheaper cost and 
greater convenience. If the traveling distance is more than 500 
miles, air transportation rapidly increases its share of 
passengers due to its shorter trip time.
    Between Tokyo and Osaka, Shinkansen can complete the trip 
in just two and a half hours. Although the trip time is only 50 
minutes for transportation, most of the passengers prefer 
Shinkansen because the fare is reasonable and the trip time is 
not very different when using the travel time for the airports.
    The New Shinkansen railways are constructed and owned by 
Japan Railway Construction, Transport and Technology Agency, or 
JRTT, and operated by JRs. JRTT charges these JRs for the usage 
of its property, but the charges may not be larger than the 
profits from the operation of the New Shinkansen lines.
    The cost of New Shinkansen railway construction project is 
shared by national government and local governments. Two-thirds 
of the funds are from the national government and one-third 
from local governments.
    It can be said that New Shinkansen construction projects 
are based on a public-private partnership, where JR operators 
are supported by the funding from the governments.
    Within this framework, Hokkaido Shinkansen, Tohoku 
Shinkansen, Hokuriku Shinkansen, and Kyushu Shinkansen are 
currently under development.
    Shinkansen can significantly reduce travel time with its 
high speed operations. When Hokuriku Shinkansen started its 
operation in 1997, travel time between Tokyo and Nagano was cut 
in half.
    There are many benefits of Shinkansen. The important thing 
is that each of these features does not stand alone. Rather, 
these features are integrated and support each other.
    First, and most obviously, is the high speed of the rail. 
In 1996, the record of 275.3 miles per hour was achieved at a 
speed trial. Since 1997, Sanyo Shinkansen's highest operational 
speed has been 186 miles per hour. Even the oldest, Tokaido 
Shinkansen, is now operated with the maximum of 168 miles per 
hour.
    Shinkansen is proud of the density of its operation. The 
system can dispatch trains every three minutes. Even with the 
capacity of more than 1300 seats for each train, Shinkansen 
carried almost 300 million passengers in fiscal year 2004.
    It is worth noting that there has never been a fatal 
accident in Shinkansen since the beginning of its service in 
1964. Shinkansen rails are totally separated from conventional 
railways and operate without any grade crossings. Any 
collisions between Shinkansen trains and conventional trains or 
automobiles cannot occur.
    The Traffic Control System surveys and controls all the 
operations of Shinkansen trains, simulates the operating 
conditions when an operator makes a chance, and then advises to 
make an adjustment.
    The Automatic Train Control, or ATC, System is the key in 
eliminating human errors. If there is an irregular movement of 
the train that may result in an accident, ATC automatically 
recognizes it and stops the train.
    Shinkansen is the only high-speed railway system that was 
proved to be safe and manageable during severe earthquakes. 
When an earthquake occurs, the earthquake detection system 
recognizes its initial, relatively weak, waves, estimates the 
magnitude, and determines whether to stop the running trains.
    Let me give you a piece of trivia about the punctuality of 
Shinkansen. When asked what you think the average delay is on 
Shinkansen lines, what would you think? The answer is six 
seconds. This means just about all of the trains departing 
every few minutes, as many as 300 trains daily, are perfectly 
under control. You would also be amazed to see all the trains 
stop at exactly the same position when they come to the 
station.
    Shinkansen is a very energy-efficient mode of 
transportation. When comparing on a passenger-miles basis, 
Shinkansen's energy consumption is only a fourth of that of air 
transportation and one-sixth of automobiles. As to the CO2 
emission from Shinkansen is only one-fifth of that from 
aircraft and one-eighth from automobiles.
    I believe Shinkansen can be successfully introduced even 
outside of Japan. It can be an ideal intercity transportation 
for distances between 200 and 500 miles with high demand.
    Finally, I would like to emphasize lessons learned by the 
Japanese experience. The keys of success for Shinkansen are the 
integrated system and the public-private partnership.
    Thank you very much for listening.
    Ms. Brown of Florida. Thank you very much. Six seconds. 
Well, we are going to have some questions about that.
    [Laughter.]
    Dr. Zhao?
    Mr. Zhao. Thank you. Chairwoman, Congressmen and women, 
ladies and gentlemen, it is my great pleasure to be invited to 
make a presentation on China's high-speed rail system.
    It is really impressive to hear my colleagues present their 
excellent examples.
    I also notice our Congress members a variety of languages, 
so if you would like to ask questions later in Chinese, you are 
welcome to do so.
    [Laughter.]
    Mr. Zhao. I would like to just briefly talk about the 
current status of the Chinese railway system and also high-
speed railway and the details in funding construction, 
technology; and, finally, I will make an assessment of the 
Chinese high-speed rail system.
    China's rapid economic growth for the past two to three 
decades has provided an excellent opportunity for China to 
expand its railway system. Right now, China totaling 47,000 
miles in land, so now stands at number three in the world in 
the amount of railway track, only after the United States and 
Russia. However, this development has only started recently. 
Twenty years ago, many lines were still powered by steam, and 
the last regular steam line retired in late 2005, but some 
rural freight lines still use steam technology. Just to give 
you an idea that China is a latecomer, still catching up.
    China's transportation is responsible for 25 percent of the 
world's rail passengers and freight cargo, but it only contains 
6 percent of the world's tracks. So to also give you an idea 
how heavy is the demand in the railway system.
    The role of transportation is increasingly important in 
China.
    Now let me move to the rail administration and 
developmental goals. Railway administration is conducted by 
China's Ministry of Railways under the State Council. The 
Chinese government has adopted strategic goals for the railway 
system after studying similar systems in other countries.
    MOR Minister Liu Zhijun, for example, has elaborated 
ambitious plans for rail development, including new lines and 
high-speed rails. By 2010, for example, will increase the high-
speed to 200 kilometers per hour, that is, 124 miles. There 
will be 15,000 kilometers, and also some above 186 miles per 
hour.
    China also has met long-term plans to add 100,000 
kilometers, that is, 62,000 miles, by 2020, of which 50 percent 
will be two-way tracks. The high-speed rail system will reach 
18,000 miles. So just to give you some rough idea. Also, there 
are plans nationwide to have, for example, four vertical 
systems running north to south, roughly from Boston to Tampa, 
Florida, for example; or, B, four horizontal systems, from east 
to west, that is, from New York to San Francisco equivalent; 
and, C, three metropolitan systems, including the Beijing area, 
the Shanghai area, and the Guangzhou area.
    So let me now turn to high-speed railway development in 
China. As I said earlier, China is still a latecomer; it only 
started in the late 1990s. The high-speed railway in China is 
also known as China Railway High-Speed, roughly 124 to 155 
miles per hour, there are also higher ones that are 217 miles 
per hour, with two different models. One is Japan's Shinkansen 
model that relies on conventional tracks, and Germany's model 
of magnetic-levitation, maglev. So that is another model. China 
has both adopted those.
    China has increased six times for the railway speed. The 
most recent event actually started yesterday, April 14th. About 
6,000 kilometers, that is, 3,700 miles, now reach 200 
kilometers per hour, and there are, for example, 12 pairs 
between Beijing and Tianjin yesterday started to operate.
    Other examples, there are Qinghuangdao and Shenyang, 
started in 1999 and completed in 2003, which followed the 
Shinkansen model; and Shanghai-Pudong Airport to the Shanghai 
Downtown is completed in 2004 by using German technology, 
maglev, about 19 miles, the speed reached to 267 miles per 
hour. From the airport to downtown takes only seven minutes. 
This is the only maglev system.
    Other examples, China announced new plans, for example, 
Beijing to Shanghai, about 820 miles, and also pay attention to 
reduced noise pollution along the tracks. There are other 
examples. I am not going to elaborate, include Nanjing-Hefei, 
Shanghai-Hangzhou.
    I need to say a few words about Shanghai-Hangzhou. That 
actually is an extension of the Pudong Airport to Hangzhou, 
nearby city, about 120 miles, will be completed in 2010.
    Other Asian examples, this is trends. And funding primarily 
from the government and try to encourage private and 
international investment.
    In conclusion, we do see great progress; however, there is 
still a long way to go for China to catch up, particularly like 
R&D.
    Finally, I would like to say to the members of the 
Committee, welcome to China next year to the 2008 Olympics. If 
you cannot make it, come 2010 to the Shanghai Expo. Thank you 
very much.
    Ms. Brown of Florida. Thank you very much.
    I want to once again thank our distinguished panelists.
    We are going to start with Mr. Oberstar, but first I want 
to show that they got me my picture also from--I was right up 
there in the high-speed train from Brussels to Paris. I am not 
smiling because we don't have that system here in the United 
States.
    [Laughter.]
    Mr. Brown of South Carolina. Madam Chairman?
    Ms. Brown of Florida. Yes, Congressman Brown.
    Mr. Brown of South Carolina. If I might request, before our 
distinguished Congressman from Minnesota begins his speech, 
could we get an interpreter?
    [Laughter.]
    Ms. Brown of Florida. I am going to ask that he translate. 
Also, if you are going to speak in French, Mr. Chairman, we 
want a translator.
    Mr. Brown of South Carolina. Okay, thank you, Madam 
Chairman.
    [Laughter.]
    Ms. Brown of Florida. Mr. Chairman?
    Mr. Oberstar. Thank you. Well, occasionally, we need a 
translator for Mr. Brown so we can all understand South 
Carolinians. He speaks one language, and that is tourism to 
South Carolina.
    [Laughter.]
    Mr. Oberstar. And if you are inviting us, Dr. Zhao, he will 
be welcoming you to South Carolina. I know that. He is a great 
promoter.
    Mr. Zhao. Thank you.
    Mr. Brown of South Carolina. Thank you, Mr. Chairman.
    Mr. Oberstar. Mr. Shuster will want you in Pennsylvania. He 
has a big rail yard; he can do the maintenance work on your 
trains. And Ms. Brown is our advocate for high-speed passage.
    This is an impressive presentation. I thank all of you. I 
salute your technology. I have had, as I said at the outset, 
the privilege to ride the TGV, but to ride the French national 
rail system before it was TGV. In the aftermath of World War 
II, France was devastated. Three-fourths of all the rail 
stations were gone, bombed out in the war. Two-thirds of all 
the locomotives had been taken to Germany. About three-fourths 
of the railcars were gone. France had little or no highway 
system. It was paralyzed.
    The United States, under the Marshall Plan, was sending 
1,000 locomotives a year to France, and then later to Belgium, 
The Netherlands, and Germany. We were the number one producer 
in the world. Mr. Shuster's district was producing locomotives 
and railcars. And then in 1968 a revolution occurred. President 
de Gaulle, in 1967, commissioned a study of a high-speed rail 
system for France, and when the commission completed its work 
and reported back to de Gaulle and his cabinet, the finance 
minister asked how much is this going to cost, and when he was 
told a figure, the minister said, [statement in French] it's 
impossible, that will harm the finances of France, and every 
minister raised an objection.
    President de Gaulle simply said, Is there another country 
in the world that has this technology? And the answer was no. 
And then de Gaulle said, then France will be the first.
    They didn't quite become the first because Japan was there 
first with the Shinkansen. But as I related my experience 
earlier, as a graduate student, it took six hours to go from 
Paris to Brussels; two weeks ago, an hour and 20 minutes. From 
Paris-Lyon, France's second largest city, 288 miles, was 4 and 
a half hours in 1957; today it is 2 hours and one minute.
    As I said earlier, there is no air service between Brussels 
and Paris, it is all rail. In 1989 there were 3 million air 
passengers between Paris and Lyon, and 500,000 rail passengers. 
Today there are 5 million rail passengers in that corridor and 
1 million air passengers. International point-to-point service 
from Lyon to the United Kingdom has been suspended because it 
is better to fly from the U.K. to Paris and get the TGV and get 
frequent flyer miles for your rail travel to Lyon, or to 
Strasbourg or to Marseilles, than to fly there.
    I have had the delight of riding the Talgo, not in Spain, 
but in Vancouver, Washington, where the Talgo is operating. It 
is lighter; it is less cost to move; it is highly efficient and 
very smooth.
    On the trip from Paris to Lyon, we saw a group of school 
children. Well, actually, the first experience was about a 
quarter of the way from Paris we passed a small airfield where 
a twin engine aircraft had taken off and the train passed the 
plane. That is impressive.
    On that same train were school children on a day trip to 
Lyon doing their homework on the train; smooth, efficient, 
wonderful.
    On the Shinkansen in 1997, with then Chairman Bud Shuster, 
we traveled from Tokyo to Osaka. Then there were 264 million 
passengers a year on the Shinkansen; high-density population 
corridor, smooth ride, so close to the homes you could look 
inside and see people drinking tea in their homes riding 
through the tea fields.
    Dr. Zhao, you didn't say enough. China has completed the 
2500 mile line from Beijing to Lhasa, Tibet, the last sections 
of which are 14,000 feet altitude, with pressurized passenger 
rail compartments, with oxygen for the passengers at 14,000 
feet. Forty-eight hour trip from Beijing to Lhasa. When I made 
that trip in 1956 to begin my graduate studies in Belgium, I 
traveled from my hometown in Northern Minnesota, which is about 
the distance from Paris-Lyon by bus to Minneapolis.
    And then Minneapolis to Chicago on the Milwaukee 400, 
Milwaukee Railroad, 400 miles to Chicago in 400 minutes. You 
can't fly between Minneapolis and Chicago in 400 minutes 
anymore, given the time to park your car, go through security, 
check in, get on the plane, get off the plane, find your ride, 
and go to your destination. It doesn't happen. But it did 50 
years ago.
    We have regressed in the United States, instead of 
progressed, in passenger rail service and the construction of 
not only the passenger line in China from Shanghai to Beijing 
and the maglev to Guangzhou is an extraordinary accomplishment.
    But what is significant in each of these stories and the 
story that isn't told is one that I started with, and that is 
the political will. Each country has made a decision that in 
the public interest you are going to make these capital 
investments for the public benefit, and that is what we lack in 
this Country, is the political will to make the investment to 
move the Country ahead, to invest in the public sector, and to 
restore passenger rail service and raise it to the next level.
    Now, the lessons learned from your several presentations 
are along the way, and I think that one chart of the circle of 
the 10 factors that go into operating passenger rail service 
and making it work effectively to serve the public interest is 
instructive for us. That is where we need to begin, to attack 
all those costs, make the capital investments, and decide to 
move forward with intercity passenger rail. Our roadways are 
congested; our railways are congested; our trucks are 
overloaded on the roadways. We need to do a far better job of 
investing in our capital infrastructure. And I am sorry Mr. 
Nadler is gone, but just moments ago he lamented that we are 
not investing in our Internet capital as we ought to be doing, 
and we are falling behind in that respect.
    This Committee, as its first responsibility, is investing 
in the Nation's infrastructure. That is our second word in our 
Committee title. And under the leadership of the gentlewoman 
from Florida and the gentleman from Pennsylvania, we are going 
to move ahead, and your lessons are extremely instructive.
    At that, I will withhold and I will be back for some 
further questions.
    Ms. Brown of Florida. Thank you.
    I was looking for Mr. Brown, but we'll go to Mr. Shuster.
    Mr. Shuster. Thank you.
    It is tough to follow up after the Chairman gives such a 
great history lesson to us and also a great vision, but it is 
absolutely true, we have got to do things differently when it 
comes to figuring out how to move people around, move products 
around our Nation that can stay competitive in the world. I 
hope that one of the things we do is not hold on to old ideas 
and systems that don't quite work. Let's try to figure out ways 
to do things new and more efficiently, like those of you in 
your countries have done.
    I have a couple of questions. First, I think that all of 
you, the technology that you employ, the trains are lighter 
than what we use in America. Our trains, we are building tanks 
that roll on rail. Your systems are all much lighter. I guess 
the question is--and you have also, from what I can tell, your 
safety record is pretty remarkable. So can you talk a little 
bit about lighter trains and safety and why you have gone that 
way and the benefits?
    Mr. Metzler. It is a very tough question because if I 
consider, for instance, the Japanese way of building the train, 
it is a little bit lighter even than France, clearly. In 
France, it is more light than the American way of building 
trains, you are right. The question is, first, to have 
appropriate static performance, static constraint performance 
in the car train. For instance, the maximum constraint so far--
I well remember my past engineer experience--in U.S., it is 
more than 200 tons, instead of 150 in France. That is to give 
you only a flavor. I don't know exactly the figures, but, in 
fact, the static constraint to meet and to overcome in case of 
car building in this Country are more higher, and that has an 
impact in weight, certainly.
    Regarding this aspect, this is a very key point you are 
raising. You have also to consider--and that is not, so far as 
I know, not yet done here in this Country--you have to see the 
crash cases, and you can have live constriction even crash 
resistance by certain design enabling, in case of collision, to 
deform the forward of the train and without engaging the static 
performance of the train. That is a question of the balance 
between static constraint--I mentioned 200 or more tons--and 
the crash behavior or the behavior in case of crash according 
to the appropriate design.
    You are absolutely right, we are convinced everywhere in 
the world that high-speed means, to some extent, light trains 
and not exceed, for instance, a certain limit of axle load, 
which is about 17 tons per axle. That is right.
    Mr. Shuster. And it is less to maintain the system? Is it 
less to maintain the train itself or the cost-savings in the 
rail bed itself?
    Mr. Metzler. The rail bed, yes.
    Mr. Shuster. What are the maintenance costs, are they 
similar to the maintenance costs on a U.S.-produced train, or 
is it less or more?
    Mr. Metzler. I will check. If I have the figures, yes, I 
will give the answer.
    Mr. Shuster. And the Japanese trains are lighter yet, did 
you say?
    Mr. Metzler. Generally speaking, the Shinkansen trains are 
a little bit lighter, of course, but in every case we are in 
the same range as far as the axle load is concerned, between 
15, in some cases, in Shinkansen, and 17 in the case of France. 
But I will not enter into too much detail, but to have a figure 
in mind, the range of axle load is between, let me say, 15 and 
17 for high-speed operation.
    Mr. Shuster. And the Japanese rail system's safety record, 
is it similar to the French? I understand the TGV hasn't had a 
casualty since 1981.
    Mr. Matsumoto. Yes, regarding the safety record of the 
Japanese Shinkansen railway system, for more than 40 years, 
since it started operation in 1964, we do not have any fatal 
accidents, not one, no, zero.
    Mr. Shuster. Thank you.
    Are we going to get an opportunity to ask more----
    Ms. Brown of Florida. Yes, we are going to have another 
round.
    Ms. Johnson?
    Ms. Johnson. Thank you very much, Madam Chair. And thank 
you for your foresight in inviting our special guests.
    I have a question that I would like each to respond. Is 
your ridership as you projected? Are the systems self-
financing? And with the speed being so rapid, it does not seem 
that it can do any local passengers, just from major city to 
major city or from one country to another. Give me an overview 
of how you gage your investment and whether it has been worth 
it.
    Mr. Metzler. As said, a very key question is to master 
forecast methods first, and to prove that over time these 
forecast methods are accurate. I can show you one example. I 
have projected the difference or the accuracy between the 
forecast and the result. Clearly, in case of--I have the slide; 
I will ask to project it. But as far as the long-term forecasts 
are concerned, 40 years ago we did it for south-east line, and 
the result are exactly in the center of the target. That is to 
say that today we have a disposal over the world, of course, 
the appropriate method to forecast the traffic, which is the 
key factor, the driving factor of return on investment.
    But the question is also to see which part of investments 
you have to devote to the right-of-way. In case of France, for 
instance, we have only around 5 percent of the cost, cap ex, in 
a new line devoted to right land acquisition. That is to say it 
is not a huge part of investment. We have to consider, for 
instance, in your Country, which could be in this respect, the 
cost of land acquisition. But I would be very surprised if this 
cost would exceed more than 10 percent, or something like that, 
of the whole investment because, of course, the earth work to 
be done, the infrastructure to be installed, the rolling stock 
to acquire represents the majority of the investment.
    Regarding the return of this investment, clearly the 
traffic is a value, is a key point. There is another key 
driving factor, your tariff policy, because if, for instance, 
you yield manage your train, your revenue, the return is 
better. And that is the reason why, as I mentioned in my 
lecture, all the lines of SNCF were self-financed, TGV North, 
South, East. In case of TGV East, conversely, due to the lack 
of value, we have to call from public funding infrastructure to 
the limit of 76 percent, as I mentioned. But that is an 
exception in the French case. That is the reason why we opened 
these lines the latest.
    Ms. Brown of Florida. We would like the answer from the 
rest of the panel also. We will extend the time.
    Mr. Barron?
    Mr. Barron. Yes, thank you, Mrs. Chairwoman.
    I would like to say there is an important threshold in 
which the limit for justifying this kind of investment in a 
corridor for high-speed traffic is more or less, at the 
minimum, 5 million passengers. This is the minimum. But in some 
conditions we can say from an economic point of view it could 
be 10, 12 million passengers per year could justify such 
construction.
    But the question is if there are social advantages and 
social inconveniences and social costs and social benefits. I 
think in this case the public funds could help to paying the 
infrastructure, and then private funds obtain benefits and the 
public ensures social benefits. So I think it is interesting to 
consider the balance between private costs and benefits and 
public costs and benefits, and it is in this moment in which 
public authorities enter in to either financing or supporting 
in a strong way the private financing. So I think this kind of 
balance is very important, because the social benefits, even if 
the level of traffic is not very high, it could be very 
interesting for society.
    Mr. Rodriguez. In the same idea, I think there are 
corridors where the infrastructure is directly profitable, more 
or less, the level of the traffic, then say Mr. Barron. But 
when you expand a network, you need to combine the idea of the 
profitable corridor, even the infrastructure profitable, and 
others where you can provide services in all the country, so 
equal rights for all people in all the country, because in our 
plan, for example, it is very important not only the main 
corridors where the infrastructure is profitable, it is to 
establish general rights for all people.
    So in all of Spain we focus the idea of all Spanish 
citizens must be stationed in reach of the vicinity of where 
they live in kilometers. This is the idea of the plan. Then 
some of the plan in general is profitable, but some corridors 
are not profitable, and we prepare two types of infrastructure: 
strong high-speed corridor; another, high-performance corridor, 
200 kilometers per hour. I mean a corridor by 350 kilometers 
per hour, another 200 kilometers per hour. But all people, all 
population, we have a station where they live to provide high-
speed services in general.
    Mr. Matsumoto. In Japan, about the Japanese railway system, 
I am sorry I do not have the exact figures of the projection, 
but talking about the New Shinkansen project which is now going 
on, when we decide to start the project, we evaluate the level 
of the demand and also the profitability and also the agreement 
from the local community, and through that process evaluate the 
demand level. Although I do not have the exact figures today, 
but just one example which I definitely want to show you, the 
Kyoshu Shinkansen in my slide, in the left side at the bottom, 
after the start of the operation in 2004, the demand level was 
more than double, so it is obviously more than the projected 
level.
    And about the financing, about the construction of the New 
Shinkansen project, as I explained, we have the government 
funding both from the national and the local level. But after 
we start the operation of the JR, we do not have any 
subsidization from the government to the JRs. The JR has to 
finance by themselves regarding the operations.
    Thank you very much.
    Mr. Zhao. In China, from 2006 to 2010, the expected expense 
for expanding railways is $162 billion. Up until recently, it 
is primarily run by the central government, but now further 
decentralized from single funding sources now to multiple 
funding sources. Now there are the central government loans, 
railway bonds, private investment, and international 
investment. Let me give you one example.
    The Beijing-Shanghai high-speed railway, which is 820 
miles, to be completed in 2010, with a projected cost of $18 
billion, most of the funding is expected from bank loans and 
bonds, but additional investment also from foreign investors 
and particularly seven provinces, equivalent to States here, 
that is a railway running through. So the Railway Ministry has 
negotiations with local government governors to let them also 
have burden-sharing.
    Ms. Brown of Florida. Mr. Brown?
    Mr. Brown of South Carolina. Thank you, Madam Chairman.
    I certainly thank this distinguished panel for coming so 
far to share some real innovative ideas on how we might be able 
to solve some of our transportation needs around the United 
States.
    My first question would be to Mr. Metzler, but certainly 
anybody else might chime in with their thoughts on it. I know 
in the United States we use a rail system with steel wheels, 
and I know that there is some limit to where we might be able 
to go as far as acceleration and speed with that technology. I 
know some of you use that, and some of you use a different 
technology like Maglev. Could you give me an idea, Mr. Metzler 
or any other members of the panel, what limits do you feel you 
can reach with just the steel wheels?
    Mr. Metzler. Today, I think that the technical limit for 
steel-to-steel rail system is around 600 kilometers an hour, 
something like that, 600, because we reached quite this limit 
in the record. I showed the video.
    Mr. Brown of South Carolina. So I guess that would be 
around 350, 360 miles an hour, then?
    Mr. Metzler. Yes, something like that.
    Mr. Brown of South Carolina. Right.
    Mr. Metzler. But the question is also an economical one, it 
is not only a purely technical one. It is not an engineer's 
dream. The question is where we have to join two cities with 
such a speed, where are located the dense demographic area in 
which such high-speed line or rapid system were, and that led 
us to the conclusion that, in Europe at least, in the coming 
years, we will stick to the limit of 360 kilometers an hour, 
220 miles. Today we will operate TGV East at 200 miles an hour, 
as you know, in the coming month, and we discussed with the 
chairman of SNCF yesterday and we intend to raise this limit 
according to the city to be served to 220, something like that, 
in the coming year.
    But that needs approval. To demonstrate, to give to you 
that this speed limit will only be employed according to our 
thought today, for the Paris-Bordeaux-Toulouse route, which is 
to be completed, as far as the high-speed line is concerned, 
over Tour, because we go to Tour, southwest of Paris, with a 
high speed line today and we have to prolong this line in the 
coming years at this. After having done so, it could be worth 
to operate this completed line at 220 kilometers an hour to 
reach Paris to Toulouse in three hours or a little bit less. 
You see that it is a marketing question more than the purely 
technical one.
    The question of increasing the speed is noise, 
environmental constraints, so they are the two main aspects to 
overcome in this respect.
    Mr. Brown of South Carolina. At those speeds, 200 miles an 
hour on the steel wheels, do they create a vibration that makes 
the ride a little bit less smooth?
    Mr. Metzler. I think this problem at this speed today is 
overcome.
    Mr. Brown of South Carolina. Okay. All right, thank you 
very much.
    And I noticed in the route map that you have, to Brussels, 
the train primarily carries traffic now, but on other routes 
where you are competing with the airlines, are the trains 
competitive price-wise?
    Mr. Metzler. The fares are competitive because clearly the 
cost of a given railway, for a lot of reasons, a high-speed 
system is less than plane operation today. That is, we don't 
exceed the fare. But I must confess, as a marketing guy, that 
we try to increase the fares as far as the market supports it, 
of course. That is the miracle of yield management. I learned 
here in your Country this way of behavior.
    Mr. Brown of South Carolina. Thank you, Madam Chair. I see 
my time has expired.
    Ms. Brown of Florida. Thank you. Let me just say that the 
U.S. prides themselves on being first in so many areas, and we, 
of course, were the first with the rail system, but now we are 
the caboose, and we don't even use that anymore. I have your 
expertise here. If there was one thing that you could share 
with us to jump-start our system, we would like to know what 
that would be. When we talk about high-speed rail, we are 
talking about at least 150 to 200. Now, in all of Europe that 
doesn't run the same. So can you share with us?
    And then the other debate that goes on in the Congress is 
that some members want the system to pay for itself, and, of 
course, you can testify and share with these members that there 
is no form of transportation that pays for itself anywhere in 
the world. So, with that, we would like to hear what would you 
do to--we need your wisdom and your expertise. Can you believe 
that? We are reaching across the aisle here, across the 
countries to get your expertise so we can push and move America 
forward.
    One of the issues that was discussed when we were in Europe 
was the greenhouse gas emissions. This is a major issue, and we 
in America have got to take our head out of the sand and figure 
out how we are going to move forward too. So, with that, would 
you share your expertise with us?
    Mr. Barron. I should say that probably you in the States, 
you have a particular idea of railways, because most of the 
railways in the States have freight trains with very particular 
characteristics, with nothing to see with passenger high 
performance trains. The first question is due to capacity 
reasons and due to some technical conditions, it is very 
difficult to compartmentalize high-speed trains with freight 
traffic. So you need specific lines. You must, in that case, 
build a specific infrastructure. This infrastructure costs, of 
course, a lot of money, but if you are not doing nothing, maybe 
from the social point of view--you have also costs.
    So I think the first argument is what we would do. It is 
difficult to say because there are a lot of things and a lot of 
possibilities. High-speed is quite different from one country 
to another and, of course, if ever you do a high-speed system 
in the States, it will be completely different than all the 
other high-speed systems existing. So the first thing is to 
define what do you want and what do you need, and what will be 
the cost and what will be the consequences for society, for 
customers and for potential investors.
    The second question is if I am doing nothing, what will be 
the consequences if I continue to increase traffic and air 
traffic, what will be the effects on the environment and so on? 
And the cost of all this competing with the different 
simulation of hypothesis in the case of adopting high-speed 
trains maybe will be the key for the answer of what we have to 
do.
    I think it is very important, the implication of public 
powers, because there are no experiences of full private 
investment in high-speed with or without success. It does not 
exist. Maybe if you try to implement a fully private, maybe it 
will be a success, but today it doesn't exist. So I think it is 
necessary to debate. And when public and society intervenes, it 
is very difficult because it is very important to start.
    I think the experience of Japan and France is interesting 
because in both cases--also in Spain--they start one single 
line, not very long line, 500 kilometers, 300 miles, and people 
test, authorities test, society tests, and then checks what is 
the effect. And once the success is observed, then society 
wants for more, and the case of Spain is very illustrative. So 
maybe it will be necessary to make a test line, test for 
society, not very long, probably, very facile, and then we can 
observe what is the effect.
    I remember that France and Japan's high-speed systems have 
reached maturity and their systems have been fully in operation 
from 25 to 40 years, and nobody speaks about the saturation of 
these axles. At this moment, under planning and the idea of 
someone is to duplicate Tokyo to Osaka and to duplicate Paris 
to Lyon. So I think this is a very important demonstration that 
high-speed is very efficient and very good for society.
    Mr. Metzler. I must precise that, for instance, the Paris-
Lyon line, which was the demonstration line to some extent, was 
absolutely self-financed by SNCF without any public funding. 
Without any public funding. It was also the case with Paris 
North. The sole exception I know is Paris East. So it exists 
around the world, some corridors, certainly, in which they 
could be self-financed.
    Ms. Brown of Florida. I see. So you are saying that there 
are some areas that don't have public finance? Where is that?
    Mr. Metzler. Paris-Lyon, again. Paris-Bordeaux, certainly.
    Ms. Brown of Florida. Yes, sir, Mr. Rodriguez.
    Mr. Rodriguez. I think the role of the railway is a 
question of the tracks, because the railway is able to develop 
new services, but you need to gain the battle of the tracks. 
But not only in the high-speed trains, in general, in passenger 
services, because the public position is more focused in 
passenger service than freight services, but not only in the 
high-speed. In our experience, after the first line, Madrid-
Seville, we waited five years to make money, to make profits; 
not immediately.
    But now the idea of one plan is the idea that generalizes 
successful experience, the first successful experience. So I 
think it is impossible for one country to generalize the idea 
of high-speed in the first step. It is not a question of step 
by step, but with a strong and successful experience 
previously. But not only I think in high-speed train, also in 
commuter trains, because in our country we are proud of the 
high-speed trains, but we are proud too of the computer trains.
    Ms. Brown of Florida. Yes, sir.
    Mr. Matsumoto. About your question of what we can provide, 
the one thing from Japanese experience, I should definitely say 
that integration of the system and technology is the thing we 
can provide from the Japanese experience. For example, when we 
discussed about speed, we can have some speed trials, and the 
maglev system has the speed record of 581 kilometers per hour. 
But when we use that technology for the actual use, we have to 
have the integrated system concerning the level of safety, the 
frequency, and punctuality, and also the level of the mass 
transportation system.
    So it is very important to consider the railway system as a 
system. So this is our experience from the Japanese high-speed 
railway system. Also, when you think about the financial 
system, we also involve the government commitment to have the 
infrastructure. But from the Japanese experience, as long as 
the operation starts, the JR company can finance by themselves 
for the operations.
    Ms. Brown of Florida. Yes, sir.
    Mr. Zhao. From the Chinese perspective, at least three 
points can be learned. First, at the central government level, 
I fully agree with Mr. Oberstar that a political will is very 
important since, you know, a railway system is not a local 
matter, but also a nationwide matter. Secondly, coordination 
with local governments, burden sharing is also crucial. 
Thirdly, since China, for example, is a latecomer, to have 
ready technology transfer from amongst other societies and 
countries is also very much necessary.
    Ms. Brown of Florida. Thank you.
    Mr. Lipinski?
    Mr. Lipinski. Thank you, Chairwoman Brown. I have had the 
privilege of riding the TGV with Chairwoman Brown and Chairman 
Oberstar, and I thank the Chairwoman for her commitment to 
high-speed rail in this Country. I think it is somewhat of an 
embarrassment that in the U.S. we like to think that we are out 
in the forefront of technology and innovation and at the 
cutting edge, and, as the Chairwoman said, we are the caboose 
right now on this issue. But I know that Chairwoman Brown 
worked with Chairman Oberstar and in SAFETEA-LU there was $100 
million authorized per year for high-speed rail. Unfortunately, 
we have not yet appropriated any money towards that. I am very 
hopeful that we will do that.
    I think the testimony that all of you have provided today, 
first of all, has been excellent testimony. It was very 
interesting to me to hear about your experiences, and it 
certainly is convincing to me that high-speed rail is something 
that is very valuable and could serve as an important part of 
our transportation infrastructure in this Country.
    One of my concerns, since so much of the focus has to be on 
funding, is--and I will start by asking Mr. Metzler. It is good 
to see you again, Mr. Metzler. I will start by asking you, and 
then if anyone else wants to also speak about this. My concern 
here is to make sure that, okay, if we want to do high-speed 
rail, that we do not neglect everything else in rail, we do not 
decide we are going to fund high-speed rail and neglect the 
rest of the Amtrak system and we do not neglect other parts of 
our rail network. So I am wondering, Mr. Metzler, in France, 
how do you balance the funding of high-speed rail, freight 
rail, city-to-city passenger rail, and commuter rail? How do 
you balance the funding of all of those?
    Mr. Metzler. The question is crucial. About the 
relationship between the conventional train, local train, and 
high-speed train, I must also point out another point, which is 
the properly done layout of the station on the new station and 
new line. For instance, the layout of Avignon or Valance, for 
instance, is also reason for the success of the line, 
regardless the connection before or regarding the connection 
with the conventional train.
    But I come to your question. Clearly, due to the fact--
exactly it was my point--due to the fact high-speed trains 
were, in the past, highly profitable, we devoted most of our 
funding to these lines. It was reproached to us to a large 
extent because we haven't funding enough, self-funding, for 
freight or maybe for local trains. The things are changing 
because for local trains the states, the region--we say that in 
France--the states are funding, today, the regional trains, 
which are not profitable at all because the fares do not cover 
the cost of it, anywhere in the world.
    It is exactly the opposite, again, in high-speed train, 
with the exception of TGV East, I spoke about earlier on. On 
all the high-speed lines the fares raised by the client covers 
the costs, even the modernization. It is not the case in local 
trains. For a lot of public reasons, they are heavily 
subsidized, and it was for market reasons the case for freight 
trains exactly. In that, you are absolutely right, we did not 
invest enough, for a lot of reasons, in local trains in trains 
or in freight trains. We devoted the majority of our funding in 
what was, for us, profitable, the high-speed line.
    Mr. Lipinski. Thank you.
    Mr. Matsumoto. Thank you very much. Let me explain the 
Japanese government's investment to the Shinkansen on high-
speed rail and also the conventional transit railway system. 
According to the budget for fiscal year 2007, the national 
government's investment level for Shinkansen and high-speed 
rail is 263 billion Yen. On the other hand, we have the 
investment for the transit railway and the local railway, which 
is about 118 billion Yen. So we both have the investment not 
only to the high-speed railway system, but also to the 
conventional or transit railway system.
    Thank you very much.
    Ms. Brown of Florida. Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Madam Chair.
    Bienvenido otro vez. Esta es su casa. Welcome again.
    I figured I would tell Mr. Oberstar he can do his French; I 
will do the Spanish.
    It is very, very interesting to read your testimony and to 
hear your testimony because, as you have heard, we have focused 
more on other areas; and I hate to say it, a lot of is on 
defense, without participating a lot in developing the 
infrastructure to move goods and people, especially in my area, 
which is in California. And we are in the process of 
evaluating, as you mentioned earlier today, California is 
evaluating a statewide high-speed rail system that is going to 
go through Sacramento, San Francisco, all the way down to Los 
Angeles, in my area, and eventually San Diego.
    It runs through my area, so I have a great interest in 
figuring out how it can be done because as most of you already 
probably know, Southern California--not Northern California as 
much as Southern--is built out; there is no more land. There is 
no way to put any other new system unless we elevate it, 
because you then have issues of taking private property, 
businesses, and you go into eminent domain, which puts you in 
courts, and it is a very expensive proposition, as has been 
evident in some of the California highways.
    So what has been your experience in being able to develop a 
high-speed system in a very congested area, better below 
ground, elevated, on existing rail lines? Understanding that in 
California we have the two major lines that own the rail 
property. And then, of course, you also probably know that in 
the U.S. railroads are very autonomous, they have been given a 
lot of leeway from the early days of the western development.
    So all of that in consideration. It is not only the cost. 
Believe me, Californians and many other areas of the Country 
are willing to put the funding in it. It is just the dedication 
and what is going to best service the areas and the need not 
only of people movement, mass transit, if you will, high-speed, 
but also in goods movement, because we happen to have, in our 
bottom line of Los Angeles, over 50 percent of the Nation's 
goods go through those ports and utilize the same rail lines.
    So all of that in the context, that has a different 
perspective, if you know what I mean. Any one of you gentlemen.
    Mr. Metzler. It is clear that, as Chairman Oberstar said 
before, it is a public decision, basically. It is a public 
decision in facing two highway conditions or airport conditions 
to build a high-speed system which will save space, energy 
consumption, greenhouse gas emissions, clearly. Of course, you 
have to consider that in case of deciding a new public 
investment in transportation, it is clear that the platforms 
need of railway is about half or a third of which is required 
by the highway.
    My belief, my present belief is that sooner or later, due 
to the conditions we are facing, too, in highway or in 
airports, we will be forced to move some part of the 
transportation to a rail system. Of course, it will cost a lot 
of money, a lot of technique, elevation technique, underground. 
Fine. But that will be exactly the same case, and more 
expensive, if you are building a highway or new airport. That 
is my simple answer. That is the----
    Mrs. Napolitano. The bottom line.
    Mr. Metzler.--common sense answer. Of course, we have to 
reduce and to optimize investment.
    Ms. Brown of Florida. They have called for a vote and we 
are not going to come back after the vote, so, Mr. Oberstar, 
any closing remarks or questions?
    Mr. Oberstar. A couple of questions.
    I am sure you have covered a great deal of ground, but the 
essential issue for us in the United States is not much 
different from that in each of your respective countries, and 
that is what are the factors that influence the passengers' 
decision to take rail rather than car or air? There are 
multiple factors: time versus distance; reliability of service; 
and pricing. Under which circumstances do passengers make the 
choice to take high-speed rail or conventional rail, classique, 
or to use air or drive their own car?
    I think each of you would have a different experience, but 
probably with some of the common factors. Mr. Matsumoto.
    Mr. Matsumoto. Yes. According to the Japanese experience, 
the passengers choose the mode of transportation according to 
the trip time, as well as the fares. As I presented, the 
Japanese Shinkansen system has the strengths between 200 and 
500 miles of trip distance, and within this distance the trip 
time is--when we see trip time of this distance, Shinkansen has 
the strength, especially comparing with automobiles.
    And when we see the air transportation, we have to consider 
access to the airport. So when we calculate the access to the 
airport, the difference between the Shinkansen system and the 
air transportation system according to the trip time is not 
very different. Also, about the fares, Shinkansen fare level 
between Tokyo and Osaka is 1300 Yen, approximately. On the 
other hand, when you buy the regular air ticket between Tokyo 
and Osaka, it is 20,000 Yen. So it is almost 60 percent less 
expensive. This is a very important figure.
    So time and fare is the most important thing. But, 
furthermore, when we think about very demanding Japanese 
passengers, punctuality and also the frequency is very 
important to maintain the popularity of the Japanese railway 
system.
    Thank you very much.
    Mr. Oberstar. Thank you.
    Mr. Rodriguez.
    Mr. Rodriguez. I think, of course, obviously, there are the 
factors of price, time, and reliability, but another is 
comfort.
    Mr. Oberstar. Comfort.
    Mr. Rodriguez. Comfort, yes, because time usually is an 
equation, but depending on the value of the time for anybody, 
you know, for someone, the price of his time is more important 
than another. But in our case there is some movement about the 
fresh idea of time for other ideas is reliability and comfort, 
because it is very, very important, especially when you compare 
with the plane, because the problem with the plan is not the 
time, it is the reliability, and the comfort too. Comfort is 
very, very important. So that is a more established factor than 
three factors only.
    Mr. Oberstar. Thank you.
    Mr. Barron.
    Mr. Barron. I would like to point to another question 
relating with that said by Mrs. Napolitano. I think at the end 
we have a very important potential of traffic because we have a 
very high density area, but, finally, people will take the 
train from point to point, and the first thing to decide is 
from where to where is exactly; not from San Francisco to Los 
Angeles, but exactly from where to where, with how many stops.
    In Europe, we have basically two models from a geographic 
point of view concerning high-speed. The French or the Spanish 
model, in which we have different areas of population with 
potential of traffic separated several hundreds of miles, and 
in between there is nothing; and the construction is very easy, 
it is cheaper, and you have no doubt concerning where will you 
stop; no stops. This is the case of French TGV or Spanish, 
where you travel 100 or 200 or 300 kilometers or miles without 
a stop.
    But in the case of Germany and The Netherlands, in Belgium, 
in the South of England, even in Italy, you have a lot of 
extended area, something like California, for example, and in 
that case you have to decide where will be the layout, of 
course, internal, where is the exact road, but also what will 
be the location of stations, the exact placement, and this 
defines several possibilities. In Japan they decided to 
establish Shinkansen trains with and without stops in the same 
line, but it requires very particular characteristics of the 
line and very exceptional conditions for operation, which 
probably is the only country in the world in which it is 
possible to overpass trains with only three minute stops.
    In Germany, the model is different. The high-speed trains 
have several stops, every 80 kilometers, every 100 kilometers. 
And even if the maximum speed is 250 or 140 miles per hour, the 
average speed is reduced and is less spectacular than French 
results.
    So I think the first question to define is, from a 
geographical point of view, what kind of high-speed you will 
decide, and where exactly will be located the stations, and 
what will be the regime of stops, with or without direct 
trains. And once you decide this question, you can check what 
will be the cost if different alternatives will be implemented, 
so on and so on.
    Mr. Oberstar. I hate to interrupt you, thank you, but I 
want to get to Mr. Metzler before we have to go.
    Mr. Metzler. It is the kind of know-how to weigh the 
different factors raised by my colleagues. I do agree with 
them. Journey time, fares, comfort, etc. These need to be 
weighted in an accurate, comprehensive model, as I mentioned, 
forecasting model, which are working very well, like stated 
preferences, markets vary, and after that modeling, to forecast 
the market share between car and rail, air and rail. That is 
exactly the slide I projected.
    But at the end of the day, you have to choose. You can 
choose. For instance, I personally decide to reduce volume 
between Paris and North in favor of higher revenue for getting 
a better return on investment. So that is to say you have to 
balance and finally to choose, for a lot of reasons, financial 
or social economical reasons, you are making volume policy or 
revenue policy. The miracle is to combine both, of course.
    Mr. Oberstar. I wish we had more time. Unfortunately, we 
are interrupted by votes on the House Floor. I know Ms. Brown 
wants to have her own comments, but I want to thank each of you 
for the time you have taken to come and travel long distances 
to be here with us to help us think through the factors that 
are critical in developing and sustaining high-speed passenger 
rail. The experience of each of the systems that you represent 
are extremely valuable for us, and I know how critical they are 
in your own respective countries, and I want to congratulate 
each of you on the success that you have achieved and thank you 
for your contribution to our Committee's work.
    Ms. Brown of Florida. I want to thank you, thank you, thank 
you for coming, and we are looking forward to seeing you this 
summer in your respective countries. We have a couple of other 
questions that we are going to give to you in writing, if you 
would respond. Thank you again. The time is up for the votes, 
so we have to go to the Floor, but thank you again on behalf of 
the people of the United States of America, the caboose. Thank 
you.
    [Whereupon, at 12:18 p.m., the subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                                    

</pre></body></html>
